<html>
<title> - NOMINATION OF MICHAEL J. ARMSTRONG</title>
<body><pre>[Senate Hearing 105-132]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-132


 
                   NOMINATION OF MICHAEL J. ARMSTRONG

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

  THE NOMINATION OF MICHAEL J. ARMSTRONG TO BE ASSOCIATE DIRECTOR OF 
      MITIGATION OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY (FEMA)

                               __________

                              JUNE 4, 1997

                               __________

  Printed for the use of the Committee on Environment and Public Works




                       U.S. GOVERNMENT PRINGIN OFFICE
  42-913 cc                 WASHINGTON : 1997

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado
JEFF SESSIONS, Alabama
                   Steven J. Shimberg, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 4, 1997
                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......     2
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Kempthorne, Hon. Dirk, U.S. Senator from the State of Idaho......    15
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     5

                               WITNESSES

Armstrong, Michael, nominated to be Associate Director of 
  Mitigation, Federal Emergency Management Agency................     9
    Committee questionnaire......................................    22
    Letters, Office of Ethics....................................    32
    Prepared statement...........................................    18
    Responses to questions from Senator Wyden....................    34
Campbell, Hon. Ben Nighthorse, U.S. Senator from the State of 
  Colorado.......................................................     3
Conrad, Hon. Kent, U.S. Senator from the State of North Dakota...     5
Dorgan, Hon. Byron L., U.S. Senator from the State of North 
  Dakota.........................................................     6
Pomeroy, Hon. Earl, U.S. Representative from the State of North 
  Dakota.........................................................     8
Skaggs, Hon. David, U.S. Representative from the State of 
  Colorado.......................................................     7

                                 (iii)




                   NOMINATION OF MICHAEL J. ARMSTRONG

                              ----------                              


                        WEDNESDAY, JUNE 4, 1997

                                       U.S. Senate,
                 Committee On Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Kempthorne, Inhofe, Allard, 
Sessions, and Baucus.
    Also present: Senators Campbell, Conrad and Dorgan, and 
Representatives Skaggs and Pomeroy.

  OPENING STATEMENT OF JOHN H. CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. Good morning, I want to welcome everyone 
here today.
    This is a hearing to consider the nomination of Michael 
Armstrong to be Associate Director of Mitigation for the 
Federal Emergency Management Agency, FEMA. The President 
nominated Mr. Armstrong to this position on April 28, and it is 
my intention that the committee act expeditiously on his 
nomination.
    In fact, the full committee is scheduled to consider Mr. 
Armstrong's nomination during tomorrow morning's business 
meeting.
    I would like to welcome everyone, especially Mr. Armstrong. 
I understand you are joined by your parents, Mr. Armstrong.
    Mr. Armstrong. That is correct.
    Senator Chafee. Could they rise so that we can get a chance 
to welcome them?
    We're very glad to see you and appreciate your coming.
    Before we proceed there are several members here who would 
like to make an introductory statement on behalf of Mr. 
Armstrong, and I turn to my colleague on the committee, the 
distinguished Senator from Colorado, Senator Allard.
    [The prepared statement of Senator Chafee follows:]
Prepared Statement of Hon. John H. Chafee, U.S. Senator from the State 
                            of Rhode Island
    Good morning. The purpose of today's hearing is to consider the 
nomination of Michael Armstrong to be Associate Director of Mitigation 
for the Federal Emergency Management Agency. The President nominated 
Mr. Armstrong for this position on April 28, and it is my intention 
that the Committee act expeditiously on his nomination.
    I would like to welcome everyone, especially Mr. Armstrong, who is 
joined by his parents Dermond Armstrong and Joan Armstrong.
    I am pleased to report that Michael Armstrong has an impressive 
background that suits him well to the position before him. For the past 
three and a half years, he has served as the Director of FEMA Region 8, 
which includes the States of Colorado, Montana, North Dakota, South 
Dakota, Utah and Wyoming.
    As you can tell by the laudatory introductions you just heard, Mr. 
Armstrong has done an excellent job as Region 8 Director. He has 
assumed tremendous leadership during major disasters, such as the 
recent floods in North Dakota. Moreover, Mr. Armstrong has done a great 
deal to encourage public outreach and coordination between Federal, 
State, and local response resources.
    FEMA is the central agency within the Federal Government 
responsible for emergency planning, preparedness, mitigation, response 
and recovery. The position for which Mr. Armstrong has been nominated, 
Associate Director of Mitigation, carries out the policies and programs 
to eliminate or reduce risks to life and property from natural hazards 
such as flood, hurricanes and earthquakes.
    Federal emergency management has always focused primarily on how to 
respond to a disaster, after it strikes. We in Congress are no 
different; almost every year, we pass supplemental emergency 
appropriations legislation to pay for the additional, unanticipated 
costs of timely disasters.
    FEMA is beginning to place greater emphasis on the mitigation or 
prevention of long-term risks before the disaster strikes. The purpose 
of this shift in focus is hopefully to reduce liabilities and 
ultimately to reduce the cost of disaster response. This appears to be 
a smart move, and I am eager to learn more about how FEMA will carry 
out this initiative.
    If confirmed, Mr. Armstrong will lead FEMA's efforts in mitigating 
the risks of natural disasters. This task is not an easy one, but I am 
confident in Mr. Armstrong's ability to face the challenge ahead. I 
look forward to hearing what Mr. Armstrong has to say about his 
experience and what he hopes to accomplish in the position before him. 
Thank you.

 OPENING STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Allard. Thank you, Mr. Chairman.
    I am pleased to introduce Mr. Michael Armstrong to be the 
Associate Director for Mitigation at the Federal Emergency 
Management Agency. I hope that we act quickly on his 
nomination, not only because I believe he is well qualified, 
but we don't want to give him any chance to change his mind, 
understanding the nature of that job.
    Although I don't know him personally, I have relied on what 
people have told me. People have told me about his performance, 
and I think I've got a pretty good feeling of what he will do 
as Associate Director.
    We have talked to many local officials and those who have 
worked with him in times of great need and stress have all 
complimented him on his ability to work with them. As Director 
of FEMA's Region VIII, he worked diligently to ensure that when 
FEMA services were needed, they were prepared. This has been 
demonstrated by Region VIII's effort to assist flood victims in 
North and South Dakota.
    Also, Mr. Armstrong has shown a strong ability to work with 
local communities and locally elected officials. Under his 
watch Region VIII has been cited as a center of excellence for 
developing national policy for community relations and 
outreach. The ability to work well with local communities and 
officials is no doubt due to Mr. Armstrong's long service as 
assistant city attorney in Aurora, CO. Working in this capacity 
it is obvious he learned that communication between all levels 
of government is important to achieving an optimal result.
    After meeting with Mr. Armstrong I am certain that he wants 
FEMA to move in a common sense direction. As Associate Director 
of Mitigation at FEMA, I am certain that he will continue to 
work on breaking the disaster/recovery/disaster cycle.
    Furthermore, I believe he has some ideas on how individuals 
and local governments can become less reliant on the Federal 
Government through mitigation. He also understands the complex 
nature of how natural resources and economic concerns interplay 
in the west and throughout the Nation as a whole.
    Mr. Chairman, I'm no expert on emergency response efforts 
for mitigation as it applies to FEMA's mission. However, I do 
know that we need experts with Mr. Armstrong's proven record 
and willingness to listen.
    Finally, I hope that today's confirmation doesn't end our 
involvement with FEMA. Oversight of the work of this important 
agency would be very valuable, as would a discussion on how the 
Federal Government budgets, or doesn't budget, for disasters.
    Welcome, Mr. Armstrong.
    Senator Chafee. Well, thank you very much, Senator.
    We have Senator Campbell, also from Colorado, and, Senator, 
we welcome you. Go to it.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
                     THE STATE OF COLORADO

    Senator Campbell. Thank you, Mr. Chairman, and members of 
the committee.
    I'm honored to join my colleague, Senator Allard, and 
Congressman Skaggs from the State of Colorado to introduce to 
you Mr. Mike Armstrong, who has been nominated for the position 
of Associate Director of FEMA for Mitigation.
    I have personally known Mike for a good number of years. As 
Senator Allard mentioned, he currently serves as the Regional 
Director of FEMA's Region VIII and has done so since January 
1994.
    This region encompasses not only my home State of Colorado, 
but Montana, North Dakota, South Dakota, Utah, and Wyoming, as 
well. In these times--I'm sure, our colleague at the end of the 
table here will tell you how important this new position is to 
his State in these disastrous times of floods in our northern 
States, particularly the Dakotas.
    In his current position as regional director, Mike has 
coordinated mitigation preparedness and disaster response and 
recovery activities in these six States, as Senator Allard has 
already mentioned.
    Mike's region has been cited, as Senator Allard again 
mentioned--we must have had the same note writer--as the center 
of excellence in developing national policy for community 
relations and outreach. Mike has also served in the State and 
local government for more than a decade, and I know for a fact 
that he has had a terrific relationship with local and 
delegation-elected officials in our State of Colorado.
    Prior to joining FEMA, he held the position of deputy 
director for the Colorado Governor's Office of Energy and 
Conservation. He also served 10 years as an assistant city 
attorney in Aurora, CO, where he specialized in land use 
issues. Mike's public service over the years and his work at 
FEMA have prepared him very well for the position of Associate 
Director of Mitigation for which he has been nominated.
    He is a person of personal integrity and a personal friend 
of mine too.
    Thank you, Mr. Chairman. I appreciate the opportunity to be 
here, and I look forward to a favorable consideration of this 
committee's remarks and vote for confirmation of Mike 
Armstrong.
    Thank you.
    Senator Chafee. Thank you very much, Senator.
    Now we have been joined by a colleague on our full 
committee, Senator Inhofe from Oklahoma.
    Senator do you have a statement?

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Just a brief comment.
    I am the chairman of the committee that oversees this 
agency so I have more than just a passive interest in this. I 
had a chance to talk to Michael Armstrong, and one of the first 
things I look at when we get into a program like the mitigation 
program is, is this another big brother program?
    I think that Michael brings to this nomination process a 
background in local government, and I think that's important as 
a former mayor. I am much more concerned about what the local 
community's role is going to be in having an understanding. All 
too often here in Washington we don't have an understanding of 
what the local community's needs are.
    I know that seeing James Lee Witt back there that he does, 
and he has done such a great job. I think it is quite a 
compliment that of all those he could have chosen he chose 
Michael Armstrong, and I'm looking forward to working with him.
    [The prepared statement of Senator Inhofe follows:]
Prepared Statement of Hon. James Inhofe, U.S. Senator from the State of 
                                Oklahoma
    Thank you Mr. Chairman for holding today's nomination hearing. As 
the Subcommittee Chairman with jurisdiction over the Federal Emergency 
Management Agency, I am very interested in the Mitigation Office.
    I think it is very important for FEMA to work closely with local 
communities and the States to develop mitigation strategies. I am 
concerned about the costs of our emergency response programs. I think 
it is important that we try to reduce the financial burden these 
programs place on our Federal budget. The efforts FEMA is making to 
reduce or eliminate long-term risk from natural disasters through the 
mitigation program is important. However, we must be careful that the 
Federal Government works with our local governments and that the 
mitigation program does not become another example of big brother 
telling local zoning boards and planning commissions what to do.
    However, based on his record, I think Mr. Armstrong is a very good 
candidate for this position. I am particularly encouraged by his 
experience in local government service. Too often bureaucrats in 
Washington have no idea how local governments operate, but I trust Mr. 
Armstrong's experience will aid him in this challenging position. I 
look forward to working with Mr. Armstrong and his associates at FEMA, 
but I hope we will be working together here in Washington and not 
because of something that happens in Oklahoma.

    Senator Chafee. We've been joined by Senator Sessions.
    Senator do you have any statement that you would like to 
make?

OPENING STATEMENT OF HON. JEFF SESSIONS, U.S. SENATOR FROM THE 
                        STATE OF ALABAMA

    Senator Sessions. Just briefly that, Mr. Armstrong, the 
FEMA people in Alabama speak well of you. They think that you 
will be responsive, and we have a number of issues that will be 
coming forth--as we always do, hurricanes and floods in the 
State--and we have a pretty active and, I think, a good group. 
My impression is, from what I hear so far, that you will be the 
kind of responsive leader and innovative leader that we've got 
to have. There is a lot of money involved in these programs.
    As a Federal prosecutor for 12 years, I had the ability to 
observe the expenditures of a lot of money for a lot of 
disaster relief. Sometimes it's not well spent. Of course, the 
best way to save money is to mitigate it in advance, and that 
will be your challenge. I think we can do a lot more in that as 
the years go by, and I think we've got to.
    I'm going to look at it, Mr. Chairman, the amount of money 
year after year we are spending on disasters. I know to some 
degree our population increases but not that much, and I think 
disaster funding has gone up much more than that. I think it's 
incumbent on us to do what we can to mitigate the ever-growing 
expenditures for disaster relief.
    Thank you very much, Mr. Chairman.
    Senator Chafee. Thank you, Senator.
    And now we've been joined by the distinguished Senator from 
North Dakota, Senator Conrad.

 STATEMENT OF HON. KENT CONRAD, U.S. SENATOR FROM THE STATE OF 
                          NORTH DAKOTA

    Senator Conrad. Thank you, Mr. Chairman.
    It's really an honor to be here today to say a word about 
Michael Armstrong. Let me just say that as Region VIII Director 
for FEMA, we now consider Mike to be an honorary North Dakotan 
because he has been involved in six major Presidential disaster 
declarations in the State of North Dakota since 1993, two this 
year.
    As you know, Mr. Chairman, and members of the committee, we 
have experienced the most extraordinary weather pattern in our 
history--first of all, the worst winter ever, 10 feet of snow, 
followed in the first week of April by the most powerful winter 
storm in 50 years that wiped out the electrical grid of 80,000 
people--they did not have power for an entire week--followed by 
flooding on the Red River that was the 500 year flood that 
devastated a city of 50,000--98 percent of the city of 50,000 
was evacuated. Many of those people are not back in their homes 
yet, and in the midst of all that we had a fire break out in 
downtown Grand Forks that burned three blocks of downtown, most 
of the business district destroyed.
    This is an extraordinary set of disasters, and I can say to 
you that Michael Armstrong has been superb. Not only has he 
dealt with those disasters but we also have another disaster in 
North Dakota--we have Devil's Lake, one of only two major lakes 
in the United States that is a completely closed basin, no 
inlet and no outlet, and the lake has been rising dramatically. 
It has tripled in volume and doubled in size in just the last 3 
years. You've never seen anything quite like this, and this is 
a huge lake, more than 20 miles long, and it is rising 
inexorably.
    Michael has been in charge of the Federal task force to 
deal with this disaster, and he has done an absolutely 
outstanding job.
    I think all of us know that James Lee Witt has really 
transformed FEMA. Many have said to me that the single best 
appointment that Bill Clinton made was James Lee Witt. One of 
the reasons James Lee Witt has been successful in changing that 
agency--and I think all of us remember the days when after a 
disaster, if FEMA came, the joke was that that was the next 
disaster because, frankly, FEMA did not respond well. That has 
not been the case under James Lee Witt and one of the reasons 
is he surrounded himself with people of the quality of Mike 
Armstrong.
    So I am very pleased to be here to recommend him to you, 
and to wish him the best.
    Thank you, Mr. Chairman.
    Senator Chafee. Mr. Witt is here, and we're delighted to 
see you, sir.
    Senator Dorgan, we welcome you and look forward to your 
comments.

STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM THE STATE 
                        OF NORTH DAKOTA

    Senator Dorgan. Senator Chafee, thank you very much.
    I am delighted to be here to support Mike Armstrong. I will 
not repeat what Senator Conrad has just described to you. I 
would be depressed if I repeated again that recitation of 
disasters in North Dakota.
    We have suffered terribly through a series of natural 
disasters, but we have, fortunately, had the help of a lot of 
wonderful people, and I would echo the sentiments of Senator 
Conrad, and I think others, that James Lee Witt has turned FEMA 
into a first-class operation. When FEMA is on the way, people 
feel good because they know something is going to get done.
    I went into a FEMA operations center in Grand Forks a week 
ago today, and over 100 people are working there. I can tell 
you that I left there feeling really confident that we have 
great people doing wonderful things for people who had suffered 
from these disasters.
    Mike Armstrong has been involved in Region VIII, and I have 
gotten to know him as he has worked in Region VIII, and I'll 
tell you, he is one of these unusual people in government who 
comes in and really asks two questions: all right, what do we 
need to do here, No. 1; and, No. 2, how do we get it done?
    It is not a case of someone in government trying to figure 
out where are the barriers--what are the problems going to be 
as I try to deal with this. It is someone who has a mindset to 
try to solve problems and solve problems the right way. When I 
heard that Mr. Armstrong was being nominated for this position, 
I reflected once again on how good it is for this country that 
people of Mr. Armstrong's quality are willing to commit 
themselves to more public service. He is exactly the kind of 
people we need in public service. He gives people confidence, 
he solves problems and I am very proud to be here today to say 
that if we decide to act favorably on the President's 
nomination, we will have done something good for this country 
by advancing Michael J. Armstrong to this post at FEMA.
    Senator Chafee. Well, Mr. Armstrong, you've had 6 percent 
of the Senate testify in support of you.
    [Laughter.]
    Senator Chafee. It's pretty hard to go above that.
    Now, we're going to hear from members of the House of 
Representatives.
    Representative Skaggs, we appreciate your taking the 
trouble to come here.

 STATEMENT OF HON. DAVID SKAGGS, U.S. REPRESENTATIVE FROM THE 
                       STATE OF COLORADO

    Mr. Skaggs. Mr. Chairman, thank you very much.
    Your observation echoes or precedes what was going to be 
mine, and, in addition to Mike's many talents--and I have known 
him personally for over 20 years--he is, obviously, a very able 
political organizer in the very best sense of the word, of 
knowing how to marshal human resources on behalf of getting a 
job done, and the fact that we are all here witnessing for him 
is a testament to those skills, as well.
    Talking about an Associate Director of Mitigation, I wish 
there were some way to create a parallel position in the 
Congress--perhaps, we could have some assistance in eliminating 
some of our own natural hazards--but, Mike, in his spare time, 
maybe you can come over and give us some help on the Hill as 
well.
    I have, I think, among those who are here to speak on his 
behalf, the unique experience and privilege of really knowing 
Mike personally for a long, long time; of having watched his 
passion for public service come into its full maturity and 
competence. This is a man who is absolutely selfless, 
absolutely committed to helping people. He will not go 
Washington on us. I am absolutely confident that he will be out 
in the field maintaining the kind of hands-on, immediate 
connection with the issues that he is trying to deal with, but 
will be here to be accountable whenever that is appropriate, as 
well.
     As with others, I think the success of Mr. Witt in his 
management of this agency is due not only to his own enormous 
talents, but attracting people like Mike Armstrong to, first, 
the Region VIII job he has done magnificently, and now to help 
us with this major national responsibility. I recommend him to 
the committee and am glad that he will get your quick 
consideration.
    Senator Chafee. Well, thank you.
    I notice that we have the talents of Mr. Armstrong--I 
notice in this bio here he was executive director of the 
Colorado Democratic Party, and we've had both Republican 
Senators here in support of him. So either they want him to 
move on because he represents a threat, or he is one of these 
people that successfully bridges gaps across the parties.
    [Laughter.]
    Senator Chafee. Representative Pomeroy, we welcome you 
here, and, thank you, Representative Skaggs, for coming.

 STATEMENT OF HON. EARL POMEROY, U.S. REPRESENTATIVE FROM THE 
                     STATE OF NORTH DAKOTA

    Mr. Pomeroy. Thank you, Mr. Chairman.
    It's good to see my former colleagues, Senator Inhofe and 
Senator Allard again.
    I know that when you come last on the panel, brevity is 
perhaps the best thing that you've got going for you, and I'm 
going to be very brief.
    I want to talk a moment about Mike's skills as uniquely 
linked to the Associate Director of Mitigation position.
    You know, for too long we've tried to overrule Mother 
Nature, we've tried to manage with levees that ultimately don't 
hold, we've tried to underwrite the risk of Mother Nature by 
insurance plans that ultimately can't be sustained. What we 
need to do in dealing with natural hazards is figure out a way 
to permanently mitigate development risks in conjunction with 
inevitable natural hazard. Having represented a city of 50,000 
that may have sustained a $1 billion flood damage, I can speak 
to this really from the depths of my heart.
    That is tricky business because when development butts up 
against--a prime development opportunity butts up against some 
high risk area, you've got to have extraordinary skills to 
negotiate your way through that one. Mike Armstrong has those 
extraordinary skills. I have watched him lead an interagency 
task force dealing with this very unique problem of a lake, a 
closed basin lake, that was described by Senator Conrad. Over 
the last 2\1/2\ years Mike has put himself to that task and 
done so really in an exemplary fashion. We've all watched 
Members of Congress, or, for that matter, members of the 
executive branch, mediate and arbitrate and try and coordinate 
activity.
    I've never seen anyone more skillful than Mike Armstrong in 
dealing with the terrible problem, a lot of interests and doing 
it with that level of skill. I think that those skills will be 
so well matched with this hazard and mitigation position that's 
it's going to be a real credit to the agency and to the entire 
country.
    I look forward to what he will be able to achieve in this 
position, should he be confirmed by you all, a step I would 
heartily recommend.
    Thank you.
    Senator Chafee. Thank you very much for coming.
    Now, Mr. Armstrong, you've heard some very, very fine thing 
said about you, particularly based on the job that you did as 
Region VIII Director, and you've assumed leadership there, as 
the two Senators from North Dakota pointed out and the two 
Senators from Colorado. You've had public outreach and 
coordination between the Federal, and the local and the State 
resources.
    I'm very interested in this post that you're going into, 
and I concentrate--although you're responsible for emergency 
planning, preparedness, response and recovery, you're also 
responsible for mitigation. As Representative Pomeroy said, it 
seems to me we get into a very difficult spot here.
    Let's take flood plains--when houses around flood plains 
are swept away in a flood, unhesitatingly we vote for 
appropriations to cover losses. We're all concerned about--for 
those who lost their homes, everything they had. Yet, once 
that's over with and the flood plain is there, it's very, very 
hard to get any money at all to try and buy up that flood plain 
and make sure that what took place does not take a second, or 
third or fourth time. That's what it seems to me mitigation is 
all about.
    I suppose there are mitigation steps that can be taken in 
connection with hurricanes. I suppose that gets into 
strengthening the houses, the design of the houses, there must 
be different building techniques that perhaps can withstand 
hurricanes better than others--it's an area that I'm not 
totally familiar with by a long shot.
    But, as I said, I think it is very important that in FEMA 
we spend more time, and, again, it's very hard to get the money 
for mitigation or prevention; whereas, we're fairly lavish when 
it comes to covering things when a disaster has occurred.
    So I am anxious to hear your thoughts on that. We're 
prepared now--you're at bat and if you would like to make a 
statement, please do so.

   STATEMENT OF MICHAEL ARMSTRONG, NOMINATED TO BE ASSOCIATE 
 DIRECTOR OF MITIGATION, FEDERAL EMERGENCY MANAGEMENT AGENCY, 
                         WASHINGTON, DC

    Mr. Armstrong. Well, thank you very much, and I want to 
thank the Senators and Representatives for their kind words 
this morning. I want to tell you, Mr. Chairman, that I am 
deeply honored to come before your committee today and to be 
given the opportunity to discuss serving my country and this 
Administration in this manner.
    I want to acknowledge my friends in the Congress. Again, my 
home State Senators, Senator Allard and Campbell, the North 
Dakota delegation of Senators Dorgan and Conrad, and 
Representative Pomeroy, and my own Congressman, Representative 
Skaggs, of Colorado's second district, for their ongoing 
support and their attendance here today.
    I especially want to recognize FEMA Director James Lee 
Witt, who has shown such leadership for America and such 
confidence in my work. He's been a true motivator and an 
inspiration to me.
    Most important, I would like to thank my parents for being 
here, Dermond and Joan Armstrong, who came out from Colorado to 
be with me today.
    Senator Chafee. Well, that's very nice, and we're certainly 
delighted that you took the trouble to come. You have good 
reason to be proud of your son.
    Mr. Armstrong. The work of this committee, Senator, with 
respect to FEMA and its new mitigation mission has been truly 
historic. It has expanded the scope of the Stafford Act to 
create increased mitigation opportunities after disasters 
occur, and it has encouraged efforts to promote pre-disaster 
mitigation. In confirming the agency's first Associate Director 
for Mitigation, this committee has ratified the efforts of FEMA 
to spotlight mitigation as a key component of its mission. We 
have learned that whatever form it takes, mitigation requires 
many partners, much patience, and a sensitivity to local needs.
    As a FEMA appointee since 1994, I have seen that 
partnerships, patience, and listening to local needs have 
created successful mitigation projects throughout the country. 
Some successes have been dramatic, such as the relocation of an 
entire town. Some have been more subtle, such as the public, 
private, and non-profit partnership that we engineered in my 
region when FEMA brochures on wildlife preparedness were 
underwritten by corporate funds from Janus Funds and 
distributed by local rotary club members and written by FEMA 
personnel in the foothill communities west of Denver.
    Most mitigation initiatives must be viewed in the long-term 
as investments for future generations, and to have a realistic 
chance of success they must involve a mixture of Federal, 
State, and local stakeholders. Mitigation can manifest itself 
in many different forms. It can be something as delicate as 
passage of tough local regulations, as complicated as 
retrofitting structures to withstand natural hazards, or as 
insightful as effective public education programs involving 
specialists, families, and school children.
    As a former local and State government official, I bring a 
definite bias toward local government to this job. My tenure as 
a FEMA Regional Director has reinforced the belief that unless 
State, county, and local governments believe that a concept, an 
initiative or a program has local relevancy and is 
understandable, it will stand little chance of true lasting 
success.
    While the Federal Government can be a catalyst for 
innovation, real progress can only be realized when State and 
local officials feel that they are part of the process.
    The creation of a Mitigation Directorate has provided 
better customer service to our partners by bringing together 
like-minded programs and staff who have helped create a more 
functional organization. I am proud of my association with the 
hard working staff of FEMA, both at the regional and 
headquarters levels. We can point to project after project 
which will protect lives and property, and, as a result, also 
lessen the drain of disasters on the Federal Treasury. And we 
can indicate the numerous partnerships which have been created 
with business, non-profit and academic communities to promote 
mitigation. Now we must move forward.
    I am before you today because, if confirmed, I want to 
serve in a leadership capacity in what James Lee Witt has 
called the cornerstone for emergency management in the 21st 
Century. If confirmed, I want to enlist you in the effort to 
support and educate communities in their efforts to become 
disaster resistant. I believe that, if confirmed, I can take my 
experience as a public servant serving at the field 
implementation level, and bring practical knowledge to the 
policy developers regarding how to move this program ahead.
    A thought came to me regarding this confirmation process as 
I was attending my last church service in my hometown of 
Arvada, CO. It occurred to me that perhaps the most dramatic 
example of mitigation efforts we have is that of Noah in the 
Old Testament. Here was an individual who believed in selecting 
the right structure to withstand a predicted hazard, even as 
others scoffed at his efforts as being a waste of time and 
money. In fact, you could even say that this was one of the 
first known successful relocation efforts, done before a 
disaster and by an individual rather than by a government.
    We do have modern-day Noahs who have heeded warnings about 
potential disasters. One in California comes to mind--the 
gentleman who built his home to withstand fire hazards in the 
Laguna Beach area. He made national news with the photograph of 
the only home standing undamaged in an otherwise charred 
environment. This was because he took the time to understand 
the environment in which he was building and built accordingly. 
This is mitigation in its purest form, where individual 
citizens take it upon themselves to think smartly when they 
build or occupy structures and learn how to adapt to hazards in 
their own community.
    But not every individual has the opportunity to control his 
or her living environment. Therefore, we must work with our 
partners in State and local government to put into place the 
kind of approaches which will one day equip our Nation with the 
tools and the talents to create communities which are more 
resistant to disasters. The best that all of us can do in our 
professional and personal capacities is to create a national 
environment which encourages such responsible behavior. You 
have my personal commitment to pursue this goal.
    Mr. Chairman, I appreciate this opportunity, and I look 
forward to your questions.
    Senator Chafee. Thank you very much. I don't think you will 
find anybody on this panel arguing with you about Noah.
    I am interested in what about mitigation--of course, I 
cited earlier the example of the flood plain, and then you 
cited the example of the man in California who designed his 
house with--I suppose, he cut the brush around it; I'm not sure 
what he did. I hope that you will go out there and do 
everything you can in the mitigation area; it is true that we 
go back time and time again to recover from disasters. I 
referred to the flood plains example, but I suppose there are 
others. In my own State, I've seen hurricane damage on the 
beach. Before you know it, however, everybody has built houses 
again on the beach, and they have forgotten what took place in 
1938 and 1958. Then comes another hurricane and they seek 
assistance from the Federal Government.
    What can be done, just briefly? Take, for example, this man 
in Laguna Beach. What did he do?
    Mr. Armstrong. Senator, a good example of one of the 
easiest forms of mitigation is public education. There is 
plenty of information out there right now for home builders and 
individual citizens, business people, local government leaders, 
on how communities and structures within communities should be 
built--what kind of material should be used. It's my 
understanding in reading about him, that this gentleman had 
studied the area that he was going to live in. He knew that 
based upon the climate, the topography and the vegetation that 
fire hazards were of a concern. He carefully chose the 
materials he built his house of. What comes to mind immediately 
is the example of the Three Little Pigs--he built his house of 
strong materials that he knew would withstand the hazard--
without government assistance and without government mandate. 
It was because public education was available to him.
    I think that is something that FEMA does well, but we can 
do more in partnership with the private sector, with volunteer 
groups, to educate people. If they're going to live in certain 
areas of the country that have high hazards, there are ways to 
prevent property damage and property loss, and, more 
importantly, loss of life.
    Senator Chafee. What about hurricanes?
    Mr. Armstrong. Well, the same applies----
    Senator Chafee. The same applies?
    Mr. Armstrong. Well, the same can apply, sir, to any area 
of the country depending on the hazard. If you want to talk 
about flood plains, we can talk about participation in the 
community assistance program and local regulations that are 
adopted by communities to enforce strict construction codes 
within flood plains. In higher hurricane areas public education 
can apply to how to build buildings after a disaster has 
occurred in repetitive hazard areas. There are ways to retrofit 
structures, there are stronger building materials that can be 
employed, and all of that can be done through public education 
and through assistance, both on the Federal and State level.
    Senator Chafee. Well, thank you.
    Senator Baucus.
    Senator Baucus. Thank you, Mr. Chairman.
    Mr. Armstrong, I want to begin by just complimenting your 
agency under James Lee Witt--I see he is in the audience behind 
you. I have nothing but the highest praise for FEMA. The few 
times that I have dealt directly with FEMA I have found the 
agency to be professional, first-rate, and very dedicated to 
public service. I commend the Director more than anyone else 
for that phenomenon. People in our country sometimes complain 
about government--too much of it; it doesn't do the right 
things; or it wastes money--but I take my hat off to FEMA. I 
think you've done a terrific job. James Lee Witt's presence 
here today also, I think, is a testament to the dedication that 
he has to the agency. It is not often that someone here for a 
confirmation hearing has his boss sitting in the audience, and 
that's very good.
    I, as you know, have particular interest in mitigation. You 
and I spoke about this yesterday when you were in my office, 
and I just want to follow up on the conversation that you had 
with the chairman. There are all forms of mitigation. We talked 
a bit about educating the public. In fact, I did a public 
service announcement not too long ago encouraging people in 
Montana to buy flood insurance--I'm trying to do my part 
because we've had a good number of floods. However, I urge you 
to find other ways in addition to public education to encourage 
meaningful mitigation--whether it is the use of buy-outs, 
relocation, building code changes or whatever necessary, in 
addition to public education, because in the long run we're 
going to save a lot of dollars if we spend more on mitigation.
    Flood plains are called flood plains for a reason. It 
doesn't make a lot of sense to build something where there is 
going to be a flood. You will find tremendous reception here on 
the Hill if you and the Administration can come up with ideas 
to deal with this in a more aggressive way than has been done 
in the past. It's very much needed.
    I note also that you have been highly recommended by the 
Governor of Montana, Marc Racicot. That speaks very well for 
you. He is a very popular Governor, does a good job in our 
State. I wish you well and look forward to hearing your 
proposals and what we can do to get even more meaningful 
mitigation.
    Mr. Armstrong. Thank you, Senator.
    I would note in thinking about our conversation yesterday 
that I would be remiss if I didn't recognize the many 
successful projects that we've had in other parts of the 
country, especially in the midwest, with relocation of 
property. We have more and more communities joining the 
Community Assistance Program and adopting tougher local 
regulations, so I think we're on the way.
    Senator Baucus. Good, thank you.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you.
    Senator Allard.
    Senator Allard. We've talked a lot about local governments 
and how we're going to work with them. Do you have any thoughts 
in mind about what you can do to work with local governments 
that is not now being done in FEMA, as far as mitigation?
    Mr. Armstrong. Well, I think that I bring somewhat of a 
unique background to this job. As an assistant city attorney, I 
was the legal advisor to the chief building official. I staffed 
planning commissions and local zoning boards of adjustment. I 
prosecuted code enforcement cases. I think I have a good and 
keen understanding of how local government functions, the 
pressures that occur on a mayor or city council, how to work 
with homeowners groups, understanding the limited pots of money 
that they have, and also the relationship with them and their 
State legislatures, having worked in State government.
    So I think being able to go into a situation where I can 
tell people around the table that I've been there, I've walked 
in their shoes and I understand their issues, I think that will 
come as somewhat of a surprise and maybe a refreshing 
difference to them that it's not just another Federal 
bureaucrat coming in, but it's somebody who knows and 
understands local government. And perhaps that credibility and 
that experience will help FEMA move things on at a quicker pace 
and bring some insights into the process.
    Senator Allard. What do we do about these flood plains that 
was referred to by my colleague from Montana. How do you handle 
that? What kind of a recommendation do you provide?
    I've been a part of a community that has had a flood 
problem--in fact, we had a disastrous problem with a flood in 
Thompson Canyon where more than 100 people were killed in that 
flash flood. But here you are with--you have disadvantaged 
families, and all of a sudden as a consequence of a flood 
they've lost their home, lost, in some cases, their business, 
and then you tell them that they can't build back in that area. 
In other words, you tend to heap a catastrophe on top of a 
catastrophe, and that is a tough issue.
    Do you have any ideas?
    Mr. Armstrong. Well, one thing we have recently done--the 
Congress has allowed FEMA to spend some money in equipping each 
State with a State Hazard Mitigation Officer, and this is a 
relatively new program that will allow State officials now to 
meet with their county and municipal counterparts on a regular 
basis to give them some more education and ability and 
technical assistance to interpret flood plain maps, to make 
them better equipped, to make building decisions at the outset 
before the construction begins. Also it will, hopefully, 
encourage more participation in the community assistance 
program so that local governments will not allow construction 
to begin within those flood plain areas so that they won't be 
displacing anyone. They will be prohibiting construction to 
start out with.
    Senator Allard. That is all I have, Mr. Chairman.
    Senator Chafee. Thank you.
    Senator Inhofe.
    Senator Inhofe is the chairman of the subcommittee that 
deals with FEMA, so we're glad you're here.
    Senator Inhofe. Thank you, Mr. Chairman.
    Mr. Chairman, let me make a request and see if it is 
consistent with your rules for running this since James Lee 
Witt is here. Would it be all right if he joined the table up 
there so that I can ask him a couple of questions?
    Senator Chafee. Sure, sure, he's there. Step right up, Mr. 
Witt.
    [Mr. Witt joined the witness at the table.]
    Senator Inhofe. James, just briefly, so that we would have 
an idea--I would like to ask you two questions. First of all, 
so that we can get an understanding of how Michael is going to 
fit in with the rest of your operation here--I understand you 
have five deputies. I would like to have you just tell us how 
this works out and where he would fit in; and then, second, you 
chose him from one of, what, 10 regions? I would like to ask 
you why you chose him, singled him out.
    Mr. Witt. Mike, if confirmed, Senator, will be the 
Associate Director of Mitigation over the entire Mitigation 
Directorate, as well as working with all 10 regions, and also 
working with the States in implementation of the National 
Mitigation Strategy that we put together. It is a very big 
responsibility because there is so much that we have to do in 
cutting costs of disasters, looking to the future and better 
building, better building codes, helping the States and local 
governments to work through those issues. He has a tremendous 
responsibility, and with the initiative of prevention that 
we're trying to push to cut disaster costs, this is so 
critical.
    Mike was chosen because he has the experience. He has the 
background from local government to State government, as well 
as regional director, and he has dealt with these issues with 
State and local governments, as well as individuals. Mike was 
tasked to chair the Federal Task Force on Devil's Lake by the 
President to lead the Federal, State, and local task force in 
developing a long-range recovery plan for Devil's Lake, and he 
has done a great job.
    We are public servants. We have customers out there that we 
serve, as well as customers on the Hill, and customers 
internally to FEMA--our employees--and we need a manager who 
can help all these people work together. Mike has demonstrated 
those qualities.
    Senator Inhofe. Let me take this opportunity, this forum, 
to again compliment you, as I have before on the very fine work 
that you did after our disaster in the Federal office building 
in Oklahoma.
    Mr. Chairman, Mr. Witt was there right after it happened, 
and he was getting dirty with everybody else. He did a 
remarkable job, and I compliment him on that.
    Michael, we've talked, I think, mostly about natural 
disasters, and of course I'm very sensitive to man-made 
disasters after--how does mitigation work in that type of 
prevention?
    Mr. Armstrong. Well, mitigation ideally is to make sure 
that people and structures are placed in a reduced risk status. 
My region is preparing right now for the Summit of VIII to 
occur at the end of the month in Denver, and so I was 
intimately involved up until I came out here several weeks ago 
with the Department of Justice and the Department of Defense to 
make sure that the Nunn-Lugar legislation dollars that are 
coming into Colorado are being expended in a way that maximizes 
the opportunity to train local officials, to educate public 
officials and to make sure that when it is anticipated, what 
can be done to respond quickly should such an event occur.
    There is a lot of blending at that point when you talk 
about man-made disasters with preparedness, as well as 
mitigation, and it blends into areas like hazardous materials, 
and not only awareness of terrorism threat, but other chemical 
issues, as well.
    So the best thing we can do in terms of mitigation is be 
supportive of training and exercises that occur, and make sure 
that knowledge is out there on how to work together so that the 
Federal, and State and local officials can work seamlessly 
should an event occur.
    Senator Inhofe. Of course, right now with this particular 
timing, we are all very sensitive to the costs of these 
disasters. After our interview, I look at your position as one 
that is going to end up being not just cost-effective but 
saving money.
    Would you agree with that?
    Mr. Armstrong. Yes, absolutely. We believe that it is the 
ounce of prevention is worth a pound of cure.
    Senator Inhofe. The last thing I would ask is that with 
your background at the local level to be looking at these 
programs in terms of sensitivity to unfunded mandates. I hope 
you work with the communities, as opposed to sending down 
mandates that otherwise we're going to have to sometime come up 
with the money to pay for.
    Mr. Armstrong. You can count on it, Senator.
    Senator Inhofe. Good, thank you.
    Senator Chafee. Thank you, Senator.
    Senator Kempthorne, do you have any questions?

 OPENING STATEMENT OF HON. DIRK KEMPTHORNE, U.S. SENATOR FROM 
                       THE STATE OF IDAHO

    Senator Kempthorne. Mr. Chairman, no, I do not have any 
questions. I'm just here to demonstrate my support for Michael. 
I had worked with him when he was in the Denver office, and so 
I look forward to certainly supporting this nomination. I think 
it's a good nomination.
    James Lee Witt, I must say, you and your team--and I see 
the team is here--I can't say anything but high praise for all 
that you do. It has been tremendous, and many Idahoans sing the 
praises of you, Mr. Director, and your team. I known that we 
have actually sat in the back seat all scrunched in going from 
meeting to meeting, town meetings, etc., in some very tough 
situations.
    So, Mr. Chairman, I'm here to support the nomination, but 
also to just say what an advocate I am for how FEMA is being 
administered and the help that you deliver in a timely, 
efficient, effective fashion, and keep up the great work.
    Mr. Armstrong. Thank you, Senator.
    Mr. Witt. Thank you, Senator.
    Senator Chafee. A couple of obligatory questions, Mr. 
Armstrong.
    Are you willing at the request of any duly constituted 
committee of the Congress to appear in front of it as a 
witness?
    Mr. Armstrong. Yes, sir.
    Senator Chafee. Do you know of any matters which you may or 
may not have thus far disclosed which might place you in any 
conflict of interest if you are confirmed in this position?
    Mr. Armstrong. No, sir.
    Senator Chafee. Now, it is my understanding that the 
Administration has requested $50 million in the new budget for 
pre-disaster hazardous mitigation programs. I'm not sure, one, 
how you arrived--of course, this was before your watch; you 
were not even there. But it's my understanding--and maybe we'll 
have to ask these questions of Mr. Witt--it is my understanding 
that the Stafford Act has to be amended for this program to 
exist, and do you know when the Administration will submit the 
legislation to do that? Do you have any idea on that?
    Mr. Armstrong. Well, Senator, you are correct. Much of this 
work had been done before I came on board, and I know that 
Senator Bond has requested that by the Fourth of July FEMA 
submit some proposals, and I know that Director Witt and others 
are working on those now. The program you specifically referred 
to most of that money is designed to showcase communities 
across the country that we think would demonstrate a healthy 
climate for mitigation because of good public-private 
partnerships, because of a will to work in mitigation by the 
locally elected officials, and we hope by having these 
communities spotlighted that we can set a tone and show an 
example to other local governments across the country on how 
mitigation can work and is working.
    Senator Chafee. All right, well, when you get into your 
job--I might ask Mr. Witt about the Stafford Act and a program 
that--apparently, he is required to change that.
    I just would like to make a couple of observations, if I 
can. Let's just take an example from my section of the country. 
A snowfall comes along and it's really not that bad, but any 
self-respecting Governor wants the area declared a disaster 
area because there is going to be some free money showing up, 
and so why not get in on it. I probably participated in a 
little of that myself when I was Governor, but I think that 
these really aren't disasters. FEMA has to be tough, and I know 
that it is easy for me to say that being on the other side 
asking for the aid--``Oh, yes, you want some aid. There's a 
terrible situation here. We've got two feet of snow so we 
better ask for disaster relief and get some of these low-cost 
loans to fix up the property,'' and before you know it FEMA is 
paying to clean up the place.
    Now, I don't want Mr. Witt to make a note to turn down all 
requests from Rhode Island--that's not the purpose of what I'm 
saying here.
    [Laughter.]
    Senator Chafee. The second point I would like to make is it 
seems to me that as you see some of these terrible disasters 
from hurricanes or tornadoes, more so, they often seem to 
happen in trailer parks, and you can see that these trailers 
are light-weight. I just wonder if--and there must be a way of 
predicting the paths with some degree of accuracy, of habitable 
paths of tornadoes and trailer parks.
    Is there anything that can be done about that to help these 
poor souls who are low-income individuals in many instances and 
these that represent their total home?
    Mr. Armstrong. Well, Senator, being a Coloradan, I can't 
talk to you too much yet about hurricanes. I can talk to you 
about snow, and I can reference your first point, which is we 
have had a long-standing policy that State and local 
governments' budget for snow removal every year, and that snow 
removal per se is totally within the purview of State and local 
government.
    There are on rare occasions instances where emergency 
services are imperiled by snow storms, where despite the best 
efforts of State and local government, and despite the 
treasuries at the State and local level, roads cannot be kept 
clear so that ambulances, law enforcement vehicles, public 
utility vehicles to restore power can traverse public roadways.
    On those rare occasions it has been appropriate for 
Governors to request assistance, and most recently in North and 
South Dakota this past winter we had that very situation in my 
own region.
    Regarding the issue of trailer parks, I can only say that 
sometimes we wonder if there is something magnetic in trailer 
parks in terms of their relationship to disasters. The fact is, 
unfortunately, that low-income housing seems to locate itself 
in less desirable parts of communities in terms of the 
topography and that frequently if it is in a flood plain, you 
will find a trailer park.
    This gets back to my earlier comments about local 
governments joining the Community Assistance Program, 
effectively enforcing flood plain regulations and prohibiting 
construction in those areas and communities.
    Senator Chafee. All right, well, I think it would be 
interesting to see how much the country has spent in the past 
15 years, year by year, for disaster relief and then say how 
much have we spent for mitigation? I bet it's practically zero, 
and, therefore, there should be an argument that, all right, X 
percent of that--whatever it is--we ought to request for 
mitigation so there won't be building in flood plains, so there 
won't be trailer parks in the paths of tornadoes. We could 
probably plot that, as I said, with some degree of accuracy, 
and there is where you get your ounce of prevention, but the 
trouble is, I suspect, Congress has been very, very reluctant 
to do anything about prevention.
    Senator Baucus.
    Senator Baucus. You've covered it all, Mr. Chairman. Thank 
you.
    Senator Chafee. Senator Allard.
    Senator Allard. I don't have anything further, Mr. 
Chairman. Thank you.
    Senator Chafee. All right, Mr. Armstrong, thank you very 
much for appearing, and, as I mentioned, we are going to try to 
move this along swiftly. You've certainly had an impressive 
array of witnesses in your support.
    Thank you, and I thank everyone.
    Mr. Armstrong. Thank you, Senator. Thank you, committee 
members.
    Senator Chafee. That concludes the hearing.
    [Whereupon, at 10:26 a.m., the committee adjourned, to 
reconvene at the call of the chair.]
    [Additional material submitted for the record follows:]
               Prepared Statement of Michael J. Armstrong
    Mr. Chairman, I am deeply honored to come before this Committee 
today, and to be given the opportunity to discuss serving my country, 
and this Administration, in this manner. I want to acknowledge my 
friends in the Congress, starting with my home State Senators Campbell 
and Allard, the North Dakota delegation of Senators Dorgan and Conrad, 
and Representative Pomeroy, and my own Congressman, Representative 
Skaggs of Colorado's Second District, for their support and their 
attendance today. I especially want to recognize FEMA Director James 
Lee Will, who has shown such leadership for America and such confidence 
in my work. He has been a true motivator and inspiration to me. Most 
importantly, I would like to introduce the Committee to my parents, 
Dermond and Joan Armstrong, who came out from Colorado to be with me 
today.
    The work of this Committee with respect to FEMA and its new 
mitigation mission has been truly historic. It has expanded the scope 
of the Stafford Act to create increased mitigation opportunities after 
disasters occur, and it has encouraged efforts to promote more pre-
disaster mitigation. In confirming the agency's first Associate 
Director for Mitigation, this committee ratified the efforts of FEMA to 
spotlight mitigation as a key component of its mission.
    We have learned that whatever form it takes, mitigation requires 
many partners, much patience, and a sensitivity to local needs. As a 
FEMA appointee since 1994, I have seen that partnerships, patience and 
listening to local needs have created successful mitigation projects 
throughout the country. Some successes have been dramatic, such as the 
relocation of an entire town. Some have been more subtle, such as the 
public/private/non-profit partnership in my region, when FEMA brochures 
on wildfire preparedness were underwritten by Janus Funds and 
distributed by local Rotary Club members in the foothill communities 
west of Denver. Most mitigation initiatives must be viewed in the long 
term, as investments for future generations. And, to have a realistic 
chance of success, they must involve a mixture of Federal, State and 
local stakeholders. Mitigation can manifest itself in many different 
forms: something as delicate as passage of tougher local regulations, 
as complicated as retrofitting structures to withstand natural hazards, 
or as insightful as effective public education programs involving 
specialists, families and schoolchildren.
    As a former local and State government official, I bring a definite 
bias toward local government to this job. My tenure as a FEMA Regional 
Director reinforced the belief that unless State, county and local 
governments believe that a concept, initiative or program has local 
relevancy and is understandable, it will stand little chance of true, 
lasting success. While the Federal Government can be a catalyst for 
innovation, real progress can only be realized when State and local 
officials feel they are part of the process.
    The creation of a Mitigation Directorate has provided better 
customer service to our partners by bringing together like-minded 
programs and staff who have helped create a more functional 
organization. I am proud of my association with the hard working staff 
of FEMA, at both the regional and headquarters levels. We can point to 
project after project which will protect lives and property, and as a 
result also lessen the drain of disasters on the Federal treasury. We 
can indicate the numerous partnerships which have been created with 
business, non-profit, and academic communities to promote mitigation. 
Now we must move forward.
    I am before you today because, if confirmed, I want to serve in a 
leadership capacity in what James Lee Witt has called the cornerstone 
for emergency management in the 21st century. If confirmed, I want to 
enlist you in the effort to support and educate communities in their 
efforts to become disaster resistant. I believe that, if confirmed, I 
can take my experience as a public servant serving at the field 
implementation level, and bring practical knowledge to the policy 
developers regarding how to move this program ahead.
    A thought came to me regarding this confirmation process as I was 
attending my last church service in my hometown of Arvada, Colorado. It 
occurred to me that perhaps the most dramatic example of mitigation 
efforts we have is that of Noah in the Old Testament. Here was an 
individual who believed in selecting the right structure to withstand a 
predicted hazard, even as others scoffed at his efforts as being a 
waste of time and money. In fact, you could even say that this was the 
one of the first known successful relocation efforts, done before a 
disaster and by an individual rather than a government. We have modern 
day Noahs, who have heeded warnings about potential disasters. One in 
California comes to mind: the gentleman who built his home to withstand 
fire hazards in the Laguna Beach area, and made national news with the 
photograph of the only home standing undamaged in an otherwise charred 
environment, because he took the time to understand the environment in 
which he was building, and built accordingly. This is mitigation in its 
purest form: where individual citizens take it upon themselves to think 
smartly when they build or occupy structures, and learn how to adapt to 
hazards in their own community. But not every individual has the 
opportunity to control his or her living environment. Therefore, we 
must work with our partners in State and local government to put into 
place the kind of approaches which will, one day, equip our nation with 
the tools and talents to create communities which are more resistant to 
disasters. The best all of us can do, in our professional and personal 
capacities, is create a national environment which encourages such 
responsible behavior. You have my personal commitment to pursue this 
goal.
    Mr. Chairman, I appreciate this opportunity and look forward to 
your questions.

[GRAPHIC] [TIFF OMITTED] TH132.020

[GRAPHIC] [TIFF OMITTED] TH132.021

[GRAPHIC] [TIFF OMITTED] TH132.022

[GRAPHIC] [TIFF OMITTED] TH132.023

[GRAPHIC] [TIFF OMITTED] TH132.024

[GRAPHIC] [TIFF OMITTED] TH132.025

[GRAPHIC] [TIFF OMITTED] TH132.026

[GRAPHIC] [TIFF OMITTED] TH132.027

[GRAPHIC] [TIFF OMITTED] TH132.028

[GRAPHIC] [TIFF OMITTED] TH132.029

[GRAPHIC] [TIFF OMITTED] TH132.030

[GRAPHIC] [TIFF OMITTED] TH132.031

[GRAPHIC] [TIFF OMITTED] TH132.032

[GRAPHIC] [TIFF OMITTED] TH132.033

 Federal Emergency Management Agency, Associate Director for Mitigation
    The term Mitigation describes actions which help to reduce or 
eliminate long-term risk from natural disasters, such as floods, 
earthquakes, hurricanes or dam failures. The goal of mitigation is to 
create opportunities for State and local governments to enable citizens 
to construct and locate structures appropriately to reduce loss of 
lives and property damage. Examples of mitigation projects include the 
elevation or floodproofing of structures to comply with National Flood 
Insurance Program (NFIP) standards; the relocation of owners of flood-
damaged structures to new, safe and sanitary housing outside of a 
floodplain; or the construction of buildings to better resist hurricane 
forces.
    The Associate Director for Mitigation oversees all of FEMA's 
mitigation programs. He or she is responsible for the development, 
coordination and implementation of all policies, plans and programs 
within the Directorate, including the development and implementation of 
a National Mitigation Strategy and the provision of grants and 
technical assistance to State and local jurisdictions to build their 
capabilities to reduce the risks of natural hazards. The Associate 
Director manages a headquarters staff of approximately 90 and a Fiscal 
Year 1997 operating budget (estimated) of $118.9 million.
    Major programs within the Mitigation Directorate include the Hazard 
Mitigation Grant Program, Pre-Disaster Mitigation Activities, the 
National Hurricane Program, the National Earthquake Hazard Reduction 
Program, the Floodplain Management Program, the Hazard Identification 
and Risk Assessment Program (including floodplain mapping) and the 
National Dam Safety Program.
                               __________
 Responses by Michael Armstrong to Questions Submitted by Senator Wyden
    Question 1. Recently, officials from flood-damaged counties in 
Oregon met with FEMA officials to discuss providing more flexibility 
and efficiency for disaster relief projects and funding. Their specific 
concerns are multiple reporting requirements for road repair. Different 
kinds of roads fall under different Federal agencies for road repair 
dollars, and those repair projects are subject to different rules. why 
do disaster areas have to deal with two different agencies, FEMA and 
the Federal Highway Administration, two different accounting and 
contracting systems and two different funding sources in order to get 
their roads repaired? Isn't it possible to consolidate and streamline 
the system?
    Response. This issue does not fall within the jurisdiction of the 
Mitigation Directorate, but instead applies to our response and 
recovery function and the activities being managed by the Federal 
Coordinating Officer at the Disaster Field Office in Oregon. I can tell 
you that from my experience as a Regional Director, the issue of 
accessing highway funds has been a source of questions in States in my 
region as well. It is my understanding that the Congress has determined 
the process by which some funds come from the Federal Highway 
Administration, because such roads are funded and maintained with 
Federal dollars, and other funds for non-Federal aid roads would 
therefore come from FEMA. In fact, the Stafford Act specifically limits 
FEMA's assistance to non-Federal aid roads. However, consolidation and 
streamlining are important ongoing goals of this Administration, and 
this issue deserves a closer look.
    Question 2. Several of the counties in Oregon that have been most 
adversely impacted by recent floods are also the least affluent areas 
in the State. These counties cannot afford the 25 percent local match 
requirements for FEMA assistance. Are there ways for FEMA to provide 
flexibility in this matching requirement for these less affluent areas?
    Response. Again, this is an area which falls under the jurisdiction 
of response and recovery functions and the Federal Coordinating Officer 
in Oregon, rather than mitigation. However, I am personally aware of 
the impact of the most recent flooding in Oregon, as my region was 
assigned to staff the disaster response on behalf of Region X. Many of 
my staff were deployed to the Salem Disaster Field Office, including 
Sherryl Zahn from my mitigation staff, who served as the first Federal 
Coordinating Officer for the recent events. More specifically, I do 
know that it has been important for FEMA to consistently apply the 
Stafford Act in all situations. It is important to note that many 
States assist local government with the 25 percent match. In addition, 
the State has the option to apply for a FEMA cost share loan to assist 
State and local governments with meeting their responsibilities.
    Question 3. You testified that FEMA should encourage efforts to 
promote more pre-disaster mitigation and that we need to support 
communities in their efforts to become disaster resistance. One of the 
goals of Oregon's statewide land use system is to steer development 
away from areas vulnerable to natural disasters and other hazards. The 
idea is to have local communities first identify areas prone to 
flooding, landslides, earthquakes and other natural hazards. Then the 
local communities develop land use plans and regulations to avoid 
sitting homes or businesses in these hazardous areas as a way to 
minimize damage in the event of a disaster. What do you see as the 
Federal role in supporting these types of State and community efforts? 
How can FEMA recognize and promote this type of local initiative?
    Response. The President's budget request for FY98 for FEMA includes 
a request for an appropriation of $50 million for pre-disaster 
mitigation. If this appropriation is approved, FEMA will be able to 
commence a program spotlighting and assisting communities which have 
specific efforts underway to create disaster-resistant environments. We 
are particularly interested in those communities which have achieved 
the support and-participation of the private sector, and have 
demonstrated the political will to adopt progressive regulations and 
public education efforts which promote construction and occupation of 
structures which place their occupants out of harm's way. Our flood 
insurance program also supports State and community efforts to adopt 
strong local ordinances by awarding communities with special status 
which makes flood insurance more affordable. If confirmed, I intend to 
use my experience in State and local government to promote mitigation 
initiatives with key stakeholders in the public and private sectors.
  

                                <all>
</pre></body></html>
